APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Eighth Circuit
(June 18, 2021) . . . . . . . . . . . . . . . App. 1
Appendix B Order Denying Defendant Ee Hoong
Liang’s Motions to Dismiss Complaint
in the United States District Court for
the District of North Dakota
(March 27, 2018) . . . . . . . . . . . . . App. 17

App. 1

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No. 19-1427
[Filed June 18, 2021]
______________________________________
Panircelvan Kaliannan;
Tong Lay Yeen Giovanna;
Tan Hock Seng; Roger Teo Kok Wei;
Teo Khim Ho; Chang Mun Kumchristina;
Koh Hwee Ben Erin; Ng Yim Har;
Koh Thong Juay; Tong Siew Geok

)
)
)
)
)
)
)
Plaintiffs - Appellees
)
)
v.
)
)
Ee Hoong Liang
)
)
Defendant - Appellant
)
______________________________________ )
Appeal from United States District Court
for the District of North Dakota-Fargo
Submitted: April 15, 2021
Filed: June 18, 2021
Before GRUENDER, BENTON, and SHEPHERD,
Circuit Judges.
SHEPHERD, Circuit Judge.
Plaintiffs, Singapore residents and citizens who
invested in a now-defunct North Dakota company

App. 2
called North Dakota Developments, LLC (NDD),
brought this action in North Dakota federal court
seeking damages from Defendant for his role in
convincing Plaintiffs to buy fraudulent, unregistered
securities. The district court1 denied Defendant’s
motion to dismiss for lack of personal jurisdiction and
improper venue, and it later granted Plaintiffs’ motion
for summary judgment and awarded damages.
Defendant appeals. Having jurisdiction under 28
U.S.C. § 1291, we affirm.
I.
NDD purported to be a real estate venture for the
construction and operation of housing units for oil and
gas workers in three North Dakota cities and one
Montana city. In reality, NDD was a Ponzi scheme in
which investors were paid their “guaranteed” returns
with funds provided by later investors. NDD
“investments” comprised interests in the housing units
coupled with management agreements. Together, they
were investment contracts2 and therefore securities
under both federal and North Dakota law.3 However,
1

The Honorable Daniel L. Hovland, United States District Judge
for the District of North Dakota.

2

They were investment contracts because the investors invested
money in a common enterprise with expectations of profits to be
derived from the NDD scheme. See SEC v. Edwards, 540 U.S. 389,
393 (2004).
3

See 15 U.S.C. § 77b(a)(1) (defining “security” as including
“any . . . participation in any profit-sharing agreement [or] . . .
investment contract”); N.D. Cent. Code § 10-04-02(19) (defining
“security” to include an “investment contract”).

App. 3
the securities were not registered in compliance with
federal or state law.
From approximately May 2012 to April 2015,
Defendant Ee Hoong Liang, a Singapore citizen and
resident, acted as a liaison between NDD and
numerous domestic and foreign investors, including
Plaintiffs. Defendant actively recruited Plaintiffs to
purchase NDD investments, in exchange for which
NDD paid Defendant commissions in the form of a
percentage of the transactions. Defendant approached
each Plaintiff and offered them the NDD “investment
opportunity.” He gave each Plaintiff brochures and
pamphlets describing the NDD investment
opportunity. Defendant worked with other perpetrators
of the NDD scheme in North Dakota to create
marketing materials specifically targeting Plaintiffs.
Additionally, Defendant traveled to North Dakota in
order to market and sell the investments to Plaintiffs.
While in North Dakota, Defendant took pictures and
videos of the NDD properties, and he sent them to
Plaintiffs as “evidence” that the properties were
functioning. Defendant urged Plaintiffs to invest in
NDD and directed them to send their money and
investment-related paperwork to North Dakota.
Defendant also communicated extensively with North
Dakota entities regarding the sales.
In July 2013, each Plaintiff invested in NDD and
signed a management agreement wherein NDD would
manage the properties and pay each Plaintiff a
guaranteed return on their investment. Unbeknownst
to Plaintiffs, NDD paid Defendant a commission for
each investment he solicited. Also unbeknownst to

App. 4
Plaintiffs, the “investments” were fraudulent,
unregistered securities. In May 2015, the Securities
and Exchange Commission sued NDD’s principals and
others (not including Defendant) to try to recoup
investors’ money, and it shut down the NDD scheme.
Ultimately, each Plaintiff lost money on their
investment.
Plaintiffs filed a complaint and then an amended
complaint in the district court, alleging that Defendant
violated the Securities Act of 1933, 15 U.S.C. § 77a et
seq. (Count 1); the North Dakota Securities Act, N.D.
Cent. Code § 10-04-17 (Counts 2-4)4; and that
Defendant was negligent under “the common law”
(Count 5), see R. Doc. 8, at 2 3. They contended that
Defendant was NDD’s “agent”; that he solicited and
sold unregistered, fraudulent securities; and that
Plaintiffs were damaged in the form of lost
investments. Defendant, acting pro se, filed a response
which the court clerk deemed an “answer.” Later,
Defendant filed a pro se motion to dismiss for lack of
personal jurisdiction and improper venue. While the
motion was pending and after he participated in a
telephonic scheduling conference with the district
court, Defendant sent a letter to the district court
stating that his Singapore legal counsel had advised
him that he had not been properly served and thus
there was “[n]o case for [him] to answer.” R. Doc. 29, at

4

Count 2 alleged that Defendant offered and sold unregistered
securities; Count 3 alleged that Defendant sold securities as an
unlicensed agent; and Count 4 alleged that Defendant sold
securities through untrue statements and omissions.

App. 5
1. Thereafter, Defendant stopped participating in the
litigation.
The district court denied Defendant’s motion to
dismiss, concluding that it could exercise specific
personal jurisdiction over Defendant and that venue
was proper in North Dakota. Later, Plaintiffs moved
for summary judgment on all claims, to which
Defendant did not respond despite admittedly receiving
notice.5 The district court granted summary judgment
in favor of Plaintiffs and awarded total damages of
$852,638.81. Defendant, now represented by United
States counsel, appeals the district court’s denial of his
motion to dismiss and its grant of summary judgment
in favor of Plaintiffs.6 He does not challenge the
damages amount.
II.
Defendant first argues that the district court erred
in denying his motion to dismiss for lack of personal
jurisdiction and improper venue. We review the district
5

In a Supplemental Declaration in support of his motion for relief
from judgment under Federal Rule of Civil Procedure 60(b),
Defendant admitted that he had received notice of the motion for
summary judgment. The Rule 60(b) motion is addressed in further
detail infra at note 6.

6

After filing his notice of appeal, Defendant, through counsel, also
filed in the district court a Rule 60(b) motion for relief from
judgment; thus, we stayed the appeal pending the district court’s
resolution of the motion. The district court denied the motion. In
his opening brief on appeal, Defendant challenged the denial of the
Rule 60(b) motion. However, because Defendant did not file a
notice of appeal from the denial of the Rule 60(b) motion, we
dismissed that portion of the appeal for lack of jurisdiction.

App. 6
court’s rulings on personal jurisdiction and venue de
novo. See Wells Dairy, Inc. v. Food Movers Int’l, Inc.,
607 F.3d 515, 518 (8th Cir. 2010) (personal
jurisdiction); Steen v. Murray, 770 F.3d 698, 702 (8th
Cir. 2014) (venue). “The plaintiffs bear the burden of
establishing a prima facie showing of jurisdiction, and
we view the [facts] in the light most favorable to the
plaintiffs.” Whaley v. Esebag, 946 F.3d 447, 451 (8th
Cir. 2020).
A.
“Federal courts apply the long-arm statute of the
forum state to determine the existence of personal
jurisdiction over the parties.” Id. (citing Fed. R. Civ. P.
4(k)(1)(A)). North Dakota’s long-arm statute permits
personal jurisdiction to the maximum extent provided
by the Due Process Clause of the Fourteenth
Amendment, see Hansen v. Scott, 645 N.W.2d 223, 232
(N.D. 2002); N.D. R. Civ. P. 4(b)(2), so the traditional
due process analysis is dispositive, cf. Whaley, 946 F.3d
at 451 (conducting similar analysis under Arkansas’s
long-arm statute). “[C]ritical to due process analysis . . .
is that the defendant’s conduct and connection with the
forum [s]tate are such that he should reasonably
anticipate being haled into court there.” Burger King
Corp. v. Rudzewicz, 471 U.S. 462, 474 (1985) (second
alteration in original) (quoting World-Wide Volkswagen
Corp. v. Woodson, 444 U.S. 286, 297 (1980)).
In analyzing whether specific jurisdiction comports
with due process, we must decide whether the
defendant has certain minimum contacts with the
forum state and whether the plaintiffs’ claims “arise
out of or relate to the defendant’s contacts.” See Ford

App. 7
Motor Co. v. Mont. Eighth Jud. Dist. Ct., 141 S. Ct.
1017, 1025 (2021) (citation omitted). We consider “the
defendant’s contacts with the forum [s]tate itself, not
the defendant’s contacts with persons who reside
there.” Walden v. Fiore, 571 U.S. 277, 285 (2014). To
assess minimum contacts, we use a five-factor test,
with the first three factors being of “primary
importance”: “(1) the nature and quality of
[defendant’s] contacts with the forum state; (2) the
quantity of such contacts; (3) the relation of the cause
of action to the contacts; (4) the interest of the forum
state in providing a forum for its residents; and
(5) convenience of the parties.” Whaley, 946 F.3d at 452
(citation omitted). “The fourth and fifth factors ‘carry
less weight and are not dispositive.’” Id. (citation
omitted). Although the first three factors are “primary,”
we look at all the factors and the “totality of
circumstances” to determine whether personal
jurisdiction exists. K-V Pharm. Co. v. J. Uriach & CIA,
S.A., 648 F.3d 588, 592-93 (8th Cir. 2011) (citation
omitted).
Viewing the facts in the light most favorable to
Plaintiffs, we find that the first and second factors
weigh in favor of exercising jurisdiction. Plaintiffs
allege that Defendant, among other things: (1) actively
recruited investors, including Plaintiffs, to invest in a
North Dakota company; (2) brokered the sale of
interests in North Dakota real property and of North
Dakota-issued securities; (3) received commissions
from North Dakota in connection with sales of NDD
securities; (4) communicated extensively with various
North Dakota entities in connection with the sales; and
(5) traveled to North Dakota in order to market and

App. 8
sell the investments to Plaintiffs and other investors,
and on such trips took photos and videos as “evidence”
that the NDD properties were functioning. Accepting
Plaintiffs’ allegations as true, Defendant’s contacts
with North Dakota were numerous, and furthermore
“were not ‘random, fortuitous, or attenuated,’ but
rather were central to an alleged scheme to ‘purposely
avail[] [himself] of the privilege of conducting activities’
in [North Dakota].” See Whaley, 946 F.3d at 452 (first
and second alterations in original) (citations omitted).
Accordingly, the first and second factors weigh in favor
of finding personal jurisdiction.
We also agree with the district court that the third
factor weighs in favor of finding jurisdiction because
Defendant’s contacts with North Dakota “directly
relate to” Plaintiffs’ claims. See generally Ford Motor
Co., 141 S. Ct. 1017 (holding that state can exercise
specific jurisdiction over defendant if defendant’s
contacts “relate to” plaintiff’s claim). According to the
amended complaint, Defendant participated in an
allegedly fraudulent scheme by soliciting Plaintiffs to
purchase unregistered securities relating to North
Dakota real estate. Defendant communicated
extensively with Plaintiffs regarding the North Dakota
properties in order to convince Plaintiffs to invest.
Additionally, Plaintiffs allege that Defendant traveled
to North Dakota to take pictures and videos of the
properties, and in fact sent such pictures and videos to
Plaintiffs to help convince them that their
“investments” would be sound. Defendant stresses that
many of the parties’ communications about Plaintiffs’
“investments” took place in Singapore. Assuming this
is true, the communications—and “investments”

App. 9
themselves—still concerned North Dakota properties.
That the communications occurred elsewhere does not
undermine a finding that Defendant’s North Dakota
contacts “relate to” Plaintiffs’ claims. Accordingly, we
find that the third factor weighs in favor of finding
jurisdiction.
Regarding the fourth factor, the district court found
that North Dakota had an interest in adjudicating a
dispute over the sale of unregistered, fraudulent
securities tied to real property in North Dakota, and
that the claims relate to the regulation of securities in
North Dakota and disposition of real property in North
Dakota, rendering the dispute “local” in nature. We do
not disagree with the notion that there are local
elements to this dispute. However, we note that the
district court’s conclusion does not precisely track our
articulation of the fourth factor as the “interest of the
forum state in providing a forum for its residents.” See
Whaley, 946 F.3d at 452 (emphasis added)(citation
omitted); see also K-V Pharm. Co., 648 F.3d at 595
(finding that “Missouri obviously has an interest in
providing a forum for resident corporations like [the
plaintiff]”); Wells Dairy, Inc., 607 F.3d at 520 (“Iowa, as
the forum state, has an interest in providing a forum
for its company.”); Digi-Tel Holdings, Inc. v. Proteq
Telecomms. (PTE), Ltd., 89 F.3d 519, 525 (8th Cir.
1996) (noting that “Minnesota has an obvious interest
in providing a local forum in which its residents may
litigate claims”). Here, none of the Plaintiffs are North
Dakota residents, suggesting that the forum state’s
interest is not implicated with respect to providing a
forum for its residents. Cf. Asahi Metal Indus. Co. v.
Superior Ct., 480 U.S. 102, 114 (1987) (“Because the

App. 10
plaintiff is not a California resident, California’s
legitimate interests in the dispute have considerably
diminished.”). Accordingly, we find that the fourth
factor does not weigh in favor of finding jurisdiction.
However, based on the totality of the circumstances,
our finding on this factor does not outweigh the first
three “primary” factors. See K-V Pharm. Co., 648 F.3d
at 592-93. Thus, it does not undermine the propriety of
jurisdiction here.
Finally, we find that the fifth factor, convenience of
the parties, does not weigh in favor of exercising
jurisdiction, but it does not change the outcome here.
Although the at-issue properties are in North Dakota,
it cannot fairly be said that it is convenient for the
parties—all Singapore residents and citizens—to
litigate in North Dakota. Nonetheless, because the fifth
factor carries less weight, any inconvenience to the
parties does not undermine the propriety of jurisdiction
here. Moreover, Defendant was willing to travel to
North Dakota to advance the alleged investment
scheme, so his complaint that it would be inconvenient
for him to litigate in North Dakota rings hollow. Based
on the weight of the first three factors and the totality
of the circumstances, Defendant’s “conduct and
connection with [North Dakota] [were] such that he
should [have] reasonably anticipate[d] being haled into
court there.” See Burger King, 471 U.S. at 474 (quoting
World-Wide Volkswagen, 444 U.S. at 297). Accordingly,
we conclude that the exercise of personal jurisdiction
over Defendant was proper.7
7

Plaintiffs argue in the alternative that the district court can be
affirmed on the basis that Defendant’s motion to dismiss for lack

App. 11
B.
Defendant next contends that the suit should have
been dismissed for improper venue. Plaintiffs’ claims
arose “from the sale or solicitation of unregistered,
fraudulent North Dakota securities related to real
property located in North Dakota,” R. Doc. 42, at 9, and
thus the District of North Dakota is where “a
substantial part of the events or omissions giving rise
to the claim occurred, or a substantial part of property
that is the subject of the action is situated,” see 28
U.S.C. § 1391(b)(2). Thus, we agree with the district
court that venue was proper.
C.
Finally, Defendant argues, for the first time on
appeal, that the suit should have been dismissed based
on forum non conveniens because Singapore is a better
forum for litigating this dispute. “The doctrine of forum
non conveniens allows a court to decline to exercise
jurisdiction and dismiss a case where that case would

of personal jurisdiction was untimely, and thus barred, because he
filed it after he filed an answer. A motion to dismiss for lack of
personal jurisdiction must be made before a responsive pleading
(e.g., an answer) is filed. See Fed. R. Civ. P. 12(b). A leading
treatise has opined that “[a] strict interpretation of the timing
provision’s language” means that a district court must deny a
motion to dismiss for lack of personal jurisdiction after the
defendant files an answer. See 5C Arthur R. Miller, Mary Kay
Kane, & A. Benjamin Spencer, Federal Practice & Procedure Civil
§ 1361 (3d ed. 2021). Because the district court’s decision can be
affirmed on the merits, and because Defendant was pro se when he
filed the document that the court clerk designated as an “answer,”
we decline to consider Plaintiffs’ alternative argument.

App. 12
more appropriately be brought in a foreign
jurisdiction.” K-V Pharm. Co., 648 F.3d at 597. Because
Defendant did not argue for dismissal on forum non
conveniens grounds in the district court, we decline to
consider it. See Peter Kiewit Sons’, Inc. v. Wall St.
Equity Grp., Inc., 809 F.3d 1018, 1022 (8th Cir. 2016)
(appellate court ordinarily does not consider an
argument raised for the first time on appeal).
Accordingly, we affirm the district court’s denial of
Defendant’s motion to dismiss.
III.
Defendant also challenges the district court’s grant
of summary judgment on all counts in favor of
Plaintiffs. We review the district court’s grant of
summary judgment de novo, viewing the facts in the
light most favorable to the nonmoving party. Primerica
Life Ins. Co. v. Woodall, 975 F.3d 697, 699 (8th Cir.
2020).
Defendant did not respond to Plaintiffs’ motion,
despite admittedly having notice. The evidence cited by
the district court as supporting the grant of summary
judgment was the Requests for Admission propounded
upon Defendant, which the district court deemed
admitted due to Defendant’s failure to respond to the
Requests within 30 days, see Fed. R. Civ. P. 36(a)(3).
Defendant does not challenge the district court’s
decision to deem the Requests admitted, nor does he
challenge any other aspect of the Requests. Instead, he
argues that the district court should have considered
his answer and motion to dismiss, in which he
“disputed” Plaintiffs’ claims. He also attacks the

App. 13
alleged shortcomings of Plaintiffs’ other summary
judgment evidence.
First, because the answer and motion to dismiss
were unsworn, they were not evidence that the district
court could consider in ruling on the motion for
summary judgment. See Fed. R. Civ. P. 56(c); Banks v.
Deere, 829 F.3d 661, 668 (8th Cir. 2016) (holding that
“unsworn and unattested statements” could not be
considered in deciding motion for summary judgment).
Accordingly, we reject Defendant’s argument that the
district court erred in not considering these materials.
Second, assuming Defendant is correct about the
alleged shortcomings in some of Plaintiffs’ evidence, the
deemed-admitted Requests for Admission alone
demonstrate that Plaintiffs were entitled to summary
judgment. “[I]n reviewing de novo the grant of
[Plaintiffs’] unopposed motion for summary judgment,
we ‘must still determine that the moving party is
entitled to judgment as a matter of law on [each]
claim.’” Calonv. Bank of Am., N.A., 915 F.3d 528, 530
(8th Cir.2019) (third alteration in original) (quoting
Interstate Power Co. v. Kan. City Power & Light Co.,
992 F.2d 804, 807 (8th Cir. 1993)).
The Requests asked Defendant to admit liability for
all five counts of the amended complaint, including the
elements of each claim and underlying facts.
Regarding Count 1—violation of the Securities Act of
1933, 15 U.S.C. § 77a et seq.—Defendant was asked to
admit that he violated the Securities Act of 19338 and
8

Under 15 U.S.C. § 77l(a)(2), a person is liable if he, in connection
with the offer or sale of securities, made “an untrue statement of

App. 14
that he was liable to Plaintiffs for the violations. See R.
Doc. 50-1, at 1-5 (Requests Nos. 1, 3-4, 6-7, 11-14,
17-20, 22-26, 31-32). Regarding Count 2—violation of
the North Dakota Securities Act for offering and selling
unregistered securities—Defendant was asked to admit
that he acted as an offeror/seller of NDD securities and
as NDD’s agent, in which he offered and sold NDD
securities that were unregistered and not exempt from
registration in violation of N.D. Cent. Code § 10-04-04;
and that he was liable to Plaintiffs for these violations.
See R. Doc. 50-1, at 1-6 (Requests Nos. 1-5, 7, 11-14,
19-20, 24, 33, and 40). Regarding Count 3—violation of
the North Dakota Securities Act for sales of securities
by unlicensed agents—Defendant was asked to admit
that he acted as a seller of NDD securities, that he
acted as NDD’s agent, that he was unlicensed to sell
securities in violation of N.D. Cent. Code § 10-04-10,
and that he was liable to Plaintiffs for these violations.
See R. Doc. 50-1, at 1-6 (Requests Nos. 1-5, 7, 10-11,
14-16, 19-21, 27, 29, 30, 34, and 40). Regarding Count
4—violation of the North Dakota Securities Act for
sales of securities through untrue statements and
omissions—Defendant was asked to admit that he sold
and aided in selling securities to Plaintiffs without
disclosing material facts in violation of N.D. Cent. Code
a material fact or omits to state a material fact necessary in order
to make the statements, in the light of the circumstances under
which they were made, not misleading”; plaintiffs were unaware
of the misrepresentations and omissions; defendant knew, or in the
exercise of reasonable care could have known, of the
misrepresentations and omissions; and the plaintiffs were
damaged as a result. See Alton Box Bd. Co. v. Goldman, Sachs &
Co., 560 F.2d 916, 918, 924 (8th Cir. 1977). “To recover under that
section a plaintiff need not prove reliance . . . .” Id. at 924.

App. 15
§ 10-04-15(2) (including that the investments were
securities, the securities were unregistered, and
Defendant was receiving commissions); and that he
was liable to Plaintiffs for these violations. See R. Doc.
50-1, at 1-6 (Request Nos. 1, 3-7, 11, 17-20, 22-26,
28-29, 33, 35-40). Finally, regarding Count
5—negligence under North Dakota law9—Defendant
was asked to admit that he owed Plaintiffs a duty of
care (to, among other things, make sure that the
investments were issued in accordance with securities
laws), that he breached the duty of care (by, among
other things, failing to make sure that the investments
complied with securities laws), and that his breach
actually and proximately caused Plaintiffs’ injuries
(investment losses). See R. Doc. 50-1, at 1, 7-8
(Requests Nos. 1, 3, 41-44); see also Doan, 632 N.W.2d
at 820 (stating negligence standard under North
Dakota law). Because the Requests were deemed
admitted, Defendant admitted to violating federal
securities law, violating North Dakota securities laws,
and to being negligent under North Dakota law.
Defendant urges this Court to reverse and remand
so that he can defend against the motion for summary
judgment on the merits. However, Defendant already
had an opportunity to defend against the motion but
failed to avail himself of that opportunity. Instead, he
decided to stop participating in the district court

9

Although the amended complaint used the label “Negligence
under the Common Law,” R. Doc. 8, at 23, Plaintiffs’ summary
judgment motion grounded the negligence claim in North Dakota
law, see R. Doc. 50, at 17-18 (citing Doan v. City of Bismarck, 632
N.W.2d 815, 820 (N.D. 2001)).

App. 16
litigation, including not responding to the motion for
summary judgment. His “buyer’s remorse “ regarding
that decision is not a basis for reversal. Accordingly, we
conclude that the district court correctly granted
summary judgment in favor of Plaintiffs.
IV.
We affirm the district court’s judgment.

App. 17

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NORTH DAKOTA
Case No. 3:17-cv-090
[Filed March 27, 2018]
_____________________________
Panircelvan Kaliannan, et. al., )
)
Plaintiffs,
)
)
vs.
)
)
EE Hoong Liang,
)
)
Defendant.
)
_____________________________ )
ORDER DENYING DEFENDANT EE HOONG
LIANG’S MOTIONS TO DISMISS COMPLAINT
Before the Court are several pro se motions to
dismiss the Plaintiffs’ complaint filed by the
Defendant, EE Hoong Liang. See Docket Nos. 13, 18,
and 21. For the reasons set forth below, the motions
are denied.
I.

BACKGROUND

The Plaintiffs filed this action in the wake of
proceedings filed against North Dakota Developments,
LLC (“NDD”), Robert Gavin, Daniel Hogan, and relief
Defendants by the United States Securities and
Exchange Commission, alleging NDD, Gavin, and

App. 18
Hogan fraudulently raised more than $62 million from
investors through the sale of interests in North Dakota
man camps. See Case No. 4:15-cv-053 (D.N.D. May 5,
2015). In their complaint, the Plaintiffs allege EE
Hoong Liang actively assisted NDD in offering and
selling, unregistered, nonexempt, and fraudulent
securities from May 2012 to April 2015. See Docket No.
8. Specifically, the Plaintiffs allege claims against EE
Hoong Liang, by separate counts, for violations of
Section 12(a)(2) of the Securities Act of 1933 (15 U.S.C.
§ 771(a)(2)); violations of N.D.C.C. § 10-04-17 by
offering and selling unregistered securities, selling
securities as an unlicensed agent, and making untrue
statements and omissions; as well as negligence.
After filing an answer, Liang filed a motion to
dismiss pursuant to Rule 12(b) of the Federal Rules of
Civil Procedure on August 17, 2017. See Docket No. 13.
Liang filed an amended motion to dismiss on August
29, 2017, and a subsequent motion to dismiss on
September 18, 2017. See Docket Nos. 18 and 21. The
Plaintiffs filed responses in opposition to Liang’s
motions on September 1, 2017, and October 10, 2017.
See Docket Nos. 19 and 30.
II.

LEGAL DISCUSSION

In the memorandum in support of the motions to
dismiss (Docket No. 22), Liang asserts the Court lacks
jurisdiction over the matter, the venue of this action is
improper, and the complaint fails to state a claim upon
which relief can be granted. The Plaintiffs disagree,
contending this Court has jurisdiction, the complaint
satisfies the Rule 8 pleading requirement, and the
venue is proper.

App. 19
A. RULE 12(b)(2)
In the memorandum in support of the motion to
dismiss, Liang contends the Court lacks personal
jurisdiction over him and the claims against him
should be dismissed pursuant to Rule 12(b)(2) of the
Federal Rules of Civil Procedure. To defeat a motion to
dismiss for lack of personal jurisdiction, the Plaintiffs
need only establish a prima facie showing of personal
jurisdiction over Liang. Epps v. Stewart Info. Servs.
Corp., 327 F.3d 642, 647 (8th Cir. 2003). The Plaintiffs’
prima facie showing is analyzed “not by the pleadings
alone, but by the affidavits and exhibits presented with
the motions and in opposition thereto.” Dever v.
Hentzen Coatings, Inc., 380 F.3d 1070, 1072 (8th Cir.
2004). The party seeking to establish that a court has
in personam jurisdiction carries the burden of proof,
and the burden does not shift to the party challenging
jurisdiction. Epps, 327 F.3d at 647.
This Court may properly exercise personal
jurisdiction over a party if a two-step inquiry is
satisfied. First, the party must be amenable to service
of process under the appropriate long-arm statute. See
Int’l Shoe Co. v. Washington, 326 U.S. 310, 316 (1945).
Second, the party challenging personal jurisdiction
must have engaged in activities which satisfy the
minimum contacts requirement of the Due Process
Clause. Id. The jurisdiction of North Dakota courts is
governed by the North Dakota long-arm statute set
forth in Rule 4(b)(2) of the North Dakota Rules of Civil
Procedure. The North Dakota Supreme Court has held
that Rule 4(b)(2) “authorizes North Dakota courts to
exercise personal jurisdiction over nonresident

App. 20
defendants to the fullest extent permitted by due
process.” Hansen v. Scott, 2002 ND 101, ¶ 16, 645
N.W.2d 223. The Eighth Circuit Court of Appeals has
held that when a state construes its long-arm statute
to grant jurisdiction to the fullest extent permitted by
the Constitution, the Court must determine whether
the exercise of personal jurisdiction comports with due
process. Johnson v. Woodcock, 444 F.3d 953, 955 (8th
Cir. 2006).
“Due Process requires ‘minimum contacts’ between
[a] non-resident defendant and the forum state such
that ‘maintenance of the suit does not offend
traditional notions of fair play and substantial justice.’”
Dever, 380 F.3d at 1073 (quoting World-Wide
Volkswagen Corp. v. Woodson, 444 U.S. 286, 291-92
(1980)). A non-resident defendant’s contacts with a
forum state, for example, must be sufficient to cause
the defendant to “reasonably anticipate being haled
into court there.” Epps, 327 F.3d at 648. There are two
categories of minimum contacts with a state that may
subject a defendant to jurisdiction in that forum:
general jurisdiction and specific jurisdiction. With
respect to general personal jurisdiction over a
defendant, “a defendant may be subject to the forum
state’s exercise of personal jurisdiction if contacts with
the state are continuous and systematic.” Id. A state
has specific personal jurisdiction over a defendant
when the suit arises out of, or is related to, the
defendant’s contacts with the forum state. Johnson,
444 F.3d at 956.

App. 21
The Eighth Circuit has established a five-factor test
for measuring minimum contacts for purposes of
asserting personal jurisdiction over a defendant:
(1) the nature and quality of a defendant’s
contacts with a forum state; (2) the quantity of
such contacts; (3) the relation of the cause of
action to the contacts; (4) the interest of the
forum state in providing a forum for its
residents; and (5) the convenience of the parties.
Dever, 380 F.3d at 1073-74. In determining whether a
defendant has sufficient contacts with the forum state
to exercise personal jurisdiction, the court must
consider all of the contacts in the aggregate and
examine the totality of the circumstances. Northrup
King Co. v. Compania Productora Semillas Algodoneras
Selectas, S.A., 51 F.3d 1383, 1388 (8th Cir. 1995).
However, the Eighth Circuit directs courts to give
“significant weight” to the first three factors. Romak
USA, Inc. v. Rich, 384 F.3d 979, 984 (8th Cir. 2004).
The Eighth Circuit’s five-part test essentially “blends”
the tests for general and specific jurisdiction. See
Northrup King Co., 51 F.3d at 1388.
Under the test outlined above, the Plaintiffs have
the burden of proving facts to support personal
jurisdiction. Dever, 380 F.3d at 1072. The Plaintiffs
need not prove personal jurisdiction by a
preponderance of the evidence until a court holds an
evidentiary hearing or until trial. Dakota Indus., Inc.
v. Dakota Sportswear, Inc., 946 F.2d 1384, 1387 (8th
Cir. 1991). Absent a hearing, the Court will consider
the facts in the light most favorable to the non-moving

App. 22
party and resolve all conflicts in favor of that party.
Romak USA, Inc., , 384 F.3d at 983-84.
Here, Liang contends the Court lacks jurisdiction
over him because neither the Plaintiffs nor the
Defendant are citizens of the United States; the
Plaintiffs and the Defendants do not operate businesses
in North Dakota, do not possess a North Dakota
mailing address, and do not hold North Dakota assets
or property. See Docket No. 22, p. 5. However, applying
the five-factor test for minimum contacts to Liang, the
Court concludes it has personal jurisdiction over Liang.
a) NATURE
AND
CONTACTS

QUALITY

OF

In examining the nature and quality of the contacts,
the primary issue is whether the non-resident
defendant has “fair warning that a particular activity
may subject a person to the jurisdiction of a foreign
sovereign.” Gould v. P.T. Krakatau Steel, 957 F.2d 573,
576 (8th Cir. 1992). In his memorandum in support of
a motion to dismiss, Liang asserts this Court lacks
jurisdiction over the matter because:
A. Plaintiffs and the defendant are non USA
citizens
B. Plaintiffs and defendant have no USA or
North Dakota business activities
C. Plaintiffs and defendant have no USA or
North Dakota mailing addresses
D. Plaintiffs and defendant have no USA or
North Dakota Assets
E. Plaintiffs and defendant have no USA or
North Dakota properties

App. 23
F. Moreover plaintiffs and defendant that
bought NDD hotel room units [h]ave gone
into liquidations and that all money proceeds
were already paid to plaintiffs since
March/April 2017 period.
See Docket No. 22, p. 5. Even assuming such
statements as facts, none of these facts preclude the
Court from exercising jurisdiction over this case.
In their Complaint, the Plaintiffs allege:
This Court has personal jurisdiction over
Defendant because, among other things,
Defendant: actively recruited investors to invest
in a North Dakota company; brokered the sale of
interests in North Dakota real property and of
North Dakota-issued securities; received
fraudulent offering documents from North
Dakota and directed communications to North
Dakota, pertaining to their fraudulent sales of
NDD securities; received commissions from
North Dakota in connection with their sales;
directed investor funds and investment-related
paperwork to be sent to a North Dakota law firm
in connection with the sales; communicated
extensively with various North Dakota entities
in connection with the sales; travelled to North
Dakota specifically for the purpose of marketing
and selling the investments to Plaintiffs and
other investors, and on such trips taking video
and still photographs as “evidence” of and for the
purpose of, due diligence that the NDD buildings
were functioning and the oil business as thriving
as advertised; and, acted as a necessary

App. 24
intermediary in connection with a fraud
emanating from North Dakota.
See Docket No. 8, pp. 4-5 (internal citations omitted).
Based upon a review of the record, it is also evident
Liang transacted business with North Dakota entities
on several occasions. Liang’s contact with North
Dakota is not random, fortuitous, and attenuated. The
nature and quality of these contacts support the
exercise of personal jurisdiction over Liang.
b) QUANTITY OF CONTACTS
Quantity is a consideration when general
jurisdiction is alleged. Lakin v. Prudential Sec, Inc.,
348 F.3d 704, 712 (8th Cir. 2003). It is well-established
that specific jurisdiction can arise from a single contact
with the forum state. Fulton v. Chicago, Rock Island &
P.R. Co., 481 F.2d 326, 334-36 (8th Cir. 1973). The
Plaintiffs presented prima facie evidence in their
complaint that Liang traveled to North Dakota to
facilitate business with NDD. See Docket No. 8. Such
contact satisfies the single contact needed to give rise
to personal jurisdiction over Liang. Moreover, Liang’s
contact with Plaintiffs to facilitate the sale of
unregistered, fraudulent NDD securities related to
North Dakota real estate more than satisfies the
quantity of contacts needed to support personal
jurisdiction.

App. 25
c) RELATION OF CONTACTS
CAUSE OF ACTION

TO

Defendant Liang’s contact with North Dakota
directly relates to this cause of action. The Plaintiffs
allege Liang solicited for sale and sold unregistered,
fraudulent North Dakota securities, related to North
Dakota real estate. The Plaintiffs further allege:
81.

Defendant worked closely with the NDD
Scheme perpetrators, in North Dakota
and elsewhere, to prepare marketing
materials targeting Plaintiffs and offering
the unregistered NDD securities.

82.

Defendant negotiated with the NDD
Scheme perpetrators and accepted a
compensation based on sales commissions
for his sales of unregistered NDD
securities to Plaintiffs.

83.

Defendant’s
compensation
was
exorbitant: upon information and belief
Defendant received as much as 20% of
Plaintiffs’ investments, in sales
commissions.

84.

Such sales commissions were never
disclosed to Plaintiffs.

85.

The sales commissions would have been
material to Plaintiffs’ investment decision
because they substantially diminished the
amounts available to be invested and to
generate the promised investment
returns to Plaintiffs.

App. 26
86.

Defendant approached each and every
Plaintiff and offered to them the NDD
“investment opportunity.”

87.

Defendant gave each and every Plaintiff
investment-related brochures and
pamphlets that described the NDD
investment opportunity, and described
the NDD investment opportunities based
on the information in those pamphlets
and brochures.

88.

Defendant travelled to North Dakota and
took photographs and videos, which he
then transmitted to Plaintiffs and other
potential investors. These photographs
and videos were meant to persuade
investors that the NDD properties were
operational and that the oil industry
activity in the vicinity of Williston was of
sufficient volume to make the NDD
properties profitable. See Figures 1 and 2,
which depict Defendant near buildings
identified as NDD development, and in
front of an oil operation, respectively.

See Docket No. 8, pp. 16-17. These actions form the
base of the Plaintiffs’ claims against Liang and were
directly related to North Dakota. Consequently, the
Court finds it has jurisdiction over Liang to adjudicate
claims arising out of the sale or solicitation of
unregistered, fraudulent North Dakota securities
related to real property located in North Dakota. The
Court notes that some statements contained within
Liang’s memorandum in support of the motion to

App. 27
dismiss appear to contradict specific factual
underpinnings of allegations in the complaint (e.g.
percentage of commission received by Liang from North
Dakota Developments). However, these statements
alone are not sufficient to divest the Court of
jurisdiction over this matter.
d) INTEREST OF THE FORUM STATE
AND CONVENIENCE OF THE
PARTIES
It is well-established in the Eighth Circuit that the
first three factors as outlined above are of “primary
importance,” and the last two factors are of “secondary
importance.” Stanton v. St. Jude Med., Inc., 340 F.3d
690, 694 (8th Cir. 2003). The fourth factor is the
interest in the forum state in adjudicating the cause of
action. The Court finds it is in the interests of North
Dakota to adjudicate the sale of unregistered,
fraudulent securities tied to real property located in
North Dakota. The Plaintiffs’ claims relate to the
regulation of securities in North Dakota and to the
disposition of real property within North Dakota. These
specific claims are local in nature. Therefore, the
interest of North Dakota in adjudicating these claims
is heightened
The fifth factor pertains to the convenience of the
parties. The Court finds that, although none of the
parties are residents of North Dakota, the State would
be a convenient forum for this dispute because the
property related to the sale of unregistered, fraudulent
securities is located in North Dakota. Moreover, much
of the activity related to the sale or solicitation of
unregistered, fraudulent securities. Therefore, this

App. 28
factor weighs in favor of exercising personal
jurisdiction, but as stated above, the last two factors
are of secondary importance. See Stanton, 340 F.3d at
694; Northrup King Co, 51 F.3d at 1388. Based on
Liang’s contacts with North Dakota, and the totality of
the circumstances, the Court expressly finds that
exercising personal jurisdiction over the Defendant
would not violate due process. See Nw. Airlines, Inc. v.
Astraea Aviation Servs., Inc., 111 F.3d 1386, 1390 (8th
Cir. 1997). The exercise of personal jurisdiction would
not offend traditional notions of fair play and
substantial justice. The Plaintiffs have sustained their
burden of proof, and established the Court’s in
personam jurisdiction. The Court finds it possesses
personal jurisdiction over Liang.
B. RULE 12(b)(3)
In the memorandum in support of the motion to
dismiss, Liang also asserts the Plaintiffs’ complaint
must be dismissed because it was filed in an improper
venue. In support of his contention, Liang states that
none of the parties are citizens of the United States,
only two sales presentations were conducted by Robert
Gavin in Singapore, and all contracts were issued from
the United Kingdom. See Docket No. 22, p. 4. Pursuant
to 28 U.S.C. § 1391(b)(2), a civil action may be brought
in “a judicial district in which a substantial part of the
events of omissions giving rise to the claim occurred, or
a substantial part of property that is the subject of the
action is situated.” 28 U.S.C. § 1391(b)(2). As the Court
has previously discussed, the Plaintiffs’ claims arise
from the sale or solicitation of unregistered, fraudulent
North Dakota securities related to real property located

App. 29
in North Dakota. Without question, this Court is a
proper venue to bring an action because the Plaintiffs’
allegations relate to real property located in North
Dakota. Therefore, the Court concludes, even assuming
none of the parties are citizens of the United States,
pursuant to 28 U.S.C. § 1391(b)(2), venue of this action
in North Dakota is proper.
C. RULE 12(b)(6)
Liang’s last contention is that the Plaintiffs’
complaint should be dismissed for failure to state a
claim upon which relief can be granted. In support of
his contention, Liang states only that:
Plaintiffs claim must be dismissed because their
legal claims are without Merit. The defendant
have no legal responsibility over the actions,
operations, and Activities of NDD, Robert Gavin,
Danny Hogan and Pearce & Durick as per
Plaintiffs case complaint from page 6 to page 23.
Therefore the defendant cannot be held liable to
Plaintiffs investment Decisions and loses.
See Docket No. 22, p. 5. Rule 12(b)(6) of the Federal
Rules of Civil Procedure mandates the dismissal of a
claim if there has been a failure to state a claim upon
which relief can be granted. In order to survive a
motion to dismiss under Rule 12(b)(6), “a complaint
must contain sufficient factual matter, accepted as
true, to state a claim to relief that is plausible on its
face.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). A
plaintiff must show that success on the merits is more
than a “sheer possibility.” Id. A complaint is sufficient
if its “factual content . . . allows the court to draw the

App. 30
reasonable inference that the defendant is liable for the
misconduct alleged.” Id. The court must accept all
factual allegations as true, except for legal conclusions
or “formulaic recitation of the elements” of a cause of
action. Id. at 681. A complaint does not “suffice if it
tenders a naked assertion devoid of further factual
enhancement.” Id. The determination of whether a
complaint states a claim upon which relief can be
granted is “a context-specific task that requires the
reviewing court to draw on its judicial experience and
common sense.” Id. at 679. Dismissal will not be
granted unless it appears beyond doubt the plaintiff
can prove no set of facts entitling the plaintiff to relief.
Ulrich v. Pope Cnty, 715 F.3d 1054, 1058 (8th Cir.
2013).
It is unquestionably clear the complaint here
contains “sufficient factual matter, accepted as true, to
state a claim to relief that is plausible on its face” to
satisfy Rule 8. Ashcroft, 556 U.S. at 678. Consequently,
the Court concludes Liang has failed to demonstrate
dismissal pursuant to Rule 12(b)(6) of the Federal
Rules of Civil Procedure is warranted.
III.

CONCLUSION

The Court has carefully considered the entire
record, the parties’ briefs, and the relevant case law.
For the reasons set forth above, the Court DENIES
Liang’s motions to dismiss (Docket Nos. 13, 18, and 21).
IT IS SO ORDERED.

App. 31
Dated this 27th day of March, 2018.
/s/ Daniel L. Hovland
Daniel L. Hovland, Chief Judge
United States District Court

